APPENDIX 1

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 1 of 12

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF MISSISSIPPI
NORTHERN DIVISION
UNITED STATES OF AMERICA
VS.
CRIMINAL NO. 3:07CR75TSL-LRA
LEONARD GRIFFIN
MEMORANDUM OPINION AND ORDER
This cause is before the court on the motion of defendant
Leonard Griffin for compassionate release pursuant to 18 U.S.C.
§ 3582(c)(1)(A).
the motion.

The government has responded in opposition to

The court, for reasons which follow, concludes that

the motion should be denied.
In July 2007, Griffin was indicted for being a felon in
possession of a firearm.

He pled guilty in September 2007 and

in January 2008, the court sentenced him to 180 months’
imprisonment, to be followed by a 3-year term of supervised
release.

He is currently incarcerated at FCI Talladega, in

Talladega, Alabama.

He is scheduled to be released on January

17, 2023 and is eligible for home detention on July 17, 2022.
On April 10, 2020, Griffin submitted for consideration by
the warden at FCI Talladega a request for compassionate release,
stating:
My mother … is elderly with a respiratory disease of
COPD. … With this coronavirus existing, I’m therefore
requesting a compassionate release to go home and look
1

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 2 of 12

after and also help provide for my “mother”. … [D]ue
to my mother, being elderly, and also subject to
C.O.P.D. – with the use of consistent oxygen, with the
coronavirus having greater impact on people with her
condition, I therefore request for a compassionate
release.
On May 18, the warden denied this request.
On July 17, defendant, acting pro se, filed with this court
his present motion for compassionate release, asserting that he
has medical conditions, namely, “high blood pressure and
hyperthyroid problems,” that make him more susceptible to
contracting COVID-19 or more likely to suffer complications if
he were to contract the virus.

He argues that because of his

vulnerability, and his inability in the prison setting to take
needed precautions to protect himself from contracting COVID-19,
the court should grant a reduction in sentence so that he may be
released from prison.

The government opposes Griffin’s motion,

contending he fails to meet the statutory criteria for
compassionate release.
The compassionate release statute, § 3582(c)(1)(A), as
amended by the First Step Act of 2018, states that once imposed,
the court may not modify a term of imprisonment, except that the
court, on motion of Bureau of Prisons (BOP) or on motion of the
defendant following exhaustion of administrative remedies, may
reduce or modify a term of imprisonment after considering the
2

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 3 of 12

factors of 18 U.S.C. § 3553(a), if it finds that “extraordinary
and compelling reasons warrant such a reduction” and that “such
a reduction is consistent with applicable policy statements
issued by the Sentencing Commission ....”

§ 3582(c)(1)(A)(i).

See United States v. Chambliss, 948 F.3d 691, 692–93 (5th Cir.
2020).
Prior to the First Step Act of 2018, a district court could
grant relief under § 3582(c)(1)(A) only on a motion by the BOP.
And prior to December 2018, the Sentencing Commission, pursuant
to authority granted in 28 U.S.C. § 994(t), issued a policy
statement identifying as “extraordinary and compelling reasons”
that may justify compassionate release a defendant’s medical
condition, his advanced age, family circumstances, and “other
reasons” “as determined by the Director of the [BOP]” to warrant
a sentence reduction in the defendant’s case. 1
§ 1B1.13 n.1.

1

U.S.S.G.

The policy statement further provides that

With respect to a defendant’s medical condition, the policy
statement recites that a defendant’s medical condition can be an
“extraordinary and compelling reason” for relief where the
defendant has a terminal illness or is suffering from a serious
medical condition, a serious functional or cognitive impairment,
or deteriorating physical or mental health because of the aging
process, which condition “substantially diminishes the ability
of the defendant to provide self-care within the environment of
a correctional facility and from which he or she is not expected
to recover.” U.S.S.G. § 1B1.13 n.1(A). Griffin does not
contend that he meets any of these criteria.
3

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 4 of 12

compassionate release is available only if the defendant “is not
a danger to the safety of any other person or to the community,
as provided in 18 U.S.C. § 3142(g).”

Since this policy

statement has not been revised since § 3582(c)(1)(A) was amended
to allow defendants to seek compassionate release and a portion
of the policy statement is now inconsistent with the statute, as
amended, many district courts “have concluded that … the
Sentencing Commission does not have a policy position applicable
to motions for compassionate release filed by defendants
pursuant to the First Step Act” and that the courts therefore
“have discretion to determine what constitutes an ‘extraordinary
and compelling reason[]’ on a case by case basis, and reliance
on the policy statement may be helpful, but not dispositive.”
United States v. Perdigao, No. CR 07-103, 2020 WL 1672322, at *2
(E.D. La. Apr. 2, 2020) (citing United States v. Beck, 425 F.
Supp. 3d 573, 579 (M.D.N.C. 2019) (concluding that “[w]hile the
old policy statement provides helpful guidance, it does not
constrain the Court's independent assessment of whether
‘extraordinary and compelling reasons’ warrant a sentence
reduction under § 3582(c)(1)(A)(i).”)).

See United States v.

McLin, No. 1:17-CR-110-LG-RHW, 2020 WL 3803919, at *2 (S.D.
Miss. July 7, 2020) (“Regardless of whether the policy statement
remains binding, it continues to provide helpful guidance for
4

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 5 of 12

determining whether a defendant is entitled to compassionate
release.”).

Others have found the policy statement must be

strictly followed.

See, e.g., United States v. Winner, No. CR

117-034, 2020 WL 2124594, at *2 (S.D. Ga. Apr. 24, 2020)
(concluding that, even after 2018 amendment, Congress intended
the Commission, and not the judiciary, to determine what
constitutes extraordinary circumstances).

For purposes of

resolving the present motion, however, the court need not decide
this issue because Griffin has not demonstrated the existence of
what the court would, under any standard, consider to be
extraordinary and compelling reasons for the relief he seeks.
As a preliminary matter, the court acknowledges that the
government’s response to Griffin’s motion references Griffin’s
April 10, 2020 request to the warden for compassionate release
and recites that in light of that request, “Griffin has complied
with the requirements of the First Step Act by exhausting his
administrative remedies”.

However, Griffin’s April 10 request

to the warden for compassionate release was based exclusively on
his professed desire to “go home and look after and also help
provide for [his] ‘mother’”.

He did not purport to seek relief

based on his own alleged heightened risk of contracting COVID-19
and suffering severe illness (and possibly death) if he were to
contract COVID-19.

Under these circumstances, the court
5

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 6 of 12

questions whether Griffin has, in fact, exhausted his
administrative remedies.

See United States v. Silcox, No.

317CR134TAVHBG1, 2020 WL 4341758, at *2 (E.D. Tenn. July 28,
2020) (quoting United States v. Alam, 960 F.3d 831, 835 (6th
Cir. 2020) (reasoning that “[i]t would disrupt the ‘orderly
system for reviewing compassionate-release applications’ and
‘incentivize[] line jumping’ to permit defendants to present
grounds for compassionate release to the Court that the BOP had
not already received the opportunity to consider”, and thus
finding that defendant did not exhaust where she presented to
the court different grounds for compassionate release than those
advanced to the warden); see also United States v. Girod, No.
5:15-087, 2020 WL 1931242, at *3 (E.D. Ky. Apr. 21, 2020)
(denying defendant's § 3582(c)(1)(A) motion where the grounds
for relief sought in the motion (i.e., the possibility that
defendant might contract COVID-19 if not released) were not
included as grounds for relief sought in prior administrative
proceedings); United States v. Salvagno, No. 5:02-cr-51, 2020 WL
3410601 (N.D.N.Y. Apr. 23, 2020) (stating that compassionate
release request based on personal health concerns “require[d] a
second round of exhaustion” where defendant first presented that
ground for relief in a motion before the court).

Regardless of

whether he has exhausted, however, Griffin’s motion is due to be
6

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 7 of 12

denied, either for lack of jurisdiction or for lack of merit.
As Judge Ozerden recently observed, district courts in this
circuit are split on whether the exhaustion requirement at issue
is jurisdictional.

United States v. Garrett, No. 1:19CR48-HSO-

JCG, 2020 WL 4340982, at *3 (S.D. Miss. July 28, 2020) (citing
cases).

If exhaustion is jurisdictional, and if Griffin has not

exhausted because he did not pursue an administrative request
for compassionate release based on concerns relating to the risk
that COVID-19 poses to him personally due to his own health
issues, then notwithstanding the government’s concession
regarding exhaustion, the court would lack jurisdiction to
consider his motion for compassionate relief and deny his motion
for that reason.

On the other hand, if Griffin could fairly be

found to have exhausted his administrative remedy despite having
failed to first address to the warden the alleged concerns
raised in his present motion, or if exhaustion is not
jurisdictional and any potential failure to exhaust has been
waived by the government’s having conceded exhaustion, then the
motion nevertheless fails on the merits as Griffin has not shown
an extraordinary and compelling circumstance warranting
compassionate release.
Griffin contends that he is at greater risk from COVID-19
because he has “high blood pressure and hyperthyroid problems.”
7

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 8 of 12

While the Centers for Disease Control and Prevention (CDC) has
recognized that people with certain underlying medical
conditions are at increased risk for severe illness from COVID19, it has not recognized hypertension alone as causing an
increased risk for severe illness from COVID-19.

Clinical

Questions about COVID 19: Questions and Answers, Ctrs. for
Disease Control & Prevention, https://www.cdc.gov/
coronavirus/2019-ncov/hcp/faq.html#Patients-with-Hypertension
(last accessed August 4, 2020).

Rather, the CDC advises that

individuals with hypertension “might be at increased risk for
severe illness from COVID 19.”

Groups at Higher Risk for Severe

Illness, Ctrs. for Disease Control & Prevention, https://
www.cdc.gov/coronavirus/2019-ncov/need-extra-precautions/peoplewith-medical-conditions.html (retrieved August 4, 2020)
(emphasis added).

See United States v. Ferrell, No.

116CR00259TWPMJD1, 2020 WL 3871210, at *5 (S.D. Ind. July 8,
2020) (stating that although CDC has stated that hypertension
has been associated with increased illness severity and adverse
outcomes, “association is not necessarily causation, and the CDC
has not yet identified hypertension (no matter how mild, and no
matter how well-controlled) in its general list of conditions
that put people at risk for severe COVID-19 symptoms”).
Moreover, the CDC has not identified hyperthroid problems as
8

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 9 of 12

even potentially causing an increased risk for severe COVID-19
illness.

The court is thus not persuaded that these health

issues Griffin has identified amount to extraordinary
circumstances warranting a reduction in his sentence.
Though not mentioned in his motion, Griffin’s rebuttal
brief, filed by his appointed counsel, notes that the CDC has
reported that current data reflects a disproportionate number of
cases and deaths from COVID-19 in racial minority groups. 2
Counsel thus contends that Griffin, who is African American, is
at increased risk from COVID-19 because of his race.

The CDC

has recognized that “[l]ong-standing systemic health and social
inequities have put many people from racial and ethnic minority
groups at increased risk of getting sick and dying from COVID19.”

Health Equity Considerations and Racial and Ethnic

Minority Groups, https://www.cdc.gov/
coronavirus/2019-ncov/community/health-equity/raceethnicity.html?CDC_AA_refVal=https%3A%2F%2Fwww.cdc.gov%2Fcoronav
irus%2F2019-ncov%2Fneed-extra-precautions%2Fracial-ethnicminorities.html (last accessed August 4, 2020.

However, as one

court has aptly observed, this recognition does not necessarily

2

Upon filing his motion, the Federal Public Defender
was appointed to represent Griffin and filed a rebuttal
submission on his behalf.
9

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 10 of 12

translate into a conclusion that an inmate is more at risk for a
negative outcome merely because he is African American.

United

States v. Burnside, No. 18-CR-2068-CJW-MAR, 2020 WL 3443944, at
*8 (N.D. Iowa June 18, 2020).

On this issue, the Burnside court

stated:
Although data shows the black community has been
disproportionately affected in the United States, this
is likely attributable to broader societal
circumstances and inequalities and consequential
health issues. The Court is not aware of any
authority that an inmate is more at risk of serious
illness merely because they are African American.
Id.
Moreover, while not mentioned in his motion, Griffin argues
in his rebuttal brief that his elderly mother’s health
condition, i.e., COPD requiring her to wear an oxygen mask,
warrants releasing him from prison or ordering home confinement.
In this regard, he points to several cases in which courts have
found that the need to care for a parent when there is no one
else to fill that role constitutes an “extraordinary and
compelling” reason to grant compassionate release.

See United

States v. Bucci, 409 F. Supp. 3d 1, 2 (D. Mass. 2019) (When a
defendant is the “only available caregiver” for an incapacitated
parent (perhaps a more unique occurrence given that inmates may
have siblings or other family members able to care for their
parents), then, it is likewise an “extraordinary and compelling”
10

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 11 of 12

reason warranting compassionate release.); United States v.
Riley, No. 2:12-cr-62, 2020 U.S. Dist. LEXIS 82909 (D. Vt. May
12, 2020) (compassionate release granted based on age, asthma,
and defendant’s father’s failing health and him being the only
person available to provide his father’s daily care.); United
States v. Hernandez, Case No. 16-20091 (S.D. Fl. April 3, 2020)
(extraordinary and compelling reasons warranting a compassionate
release reduction where defendant was the only possible
caregiver for his 84-year-old mother who suffers from
degenerative ocular disease and cancer (in remission) that
renders her functionally blind and who has mobility issues);
United States v. Lisi, 2020 U.S. Dist. LEXIS 31127 (S.D.N.Y.
Feb. 24, 2020) (court found that if the defendant’s claims are
factually accurate, and he is the only person capable of caring
for his mother, then that would constitute an extraordinary and
compelling reason for compassionate release).

While the

citation to these cases is perhaps intended to imply that
Griffin is the only possible caregiver for his mother, Griffin
has not actually made such a claim and has certainly offered no
proof of any sort to support such a claim.

In support of the

argument that the need to care for his mother is a basis for
relief, the rebuttal does no more than cite Griffin’s April 10
administrative claim for relief, in which he merely stated that
11

Case 3:07-cr-00075-TSL-LRA Document 107 Filed 08/04/20 Page 12 of 12

he sought compassionate release so that he could “go home and
look after and also help provide for” his mother.

He did not

claim that there was no one else available to care for his
mother.
years.

Griffin has been incarcerated for approximately 13
He does not explain what care she has needed or who has

provided such care during all or any of this time or suggested
what, if anything, has changed about his mother’s circumstances
that has given rise to any need for him to now provide her care.
In short, he has not claimed or shown that he is the only
possible person who could provide needed care for his mother.
Based on the forgoing, to the extent that exhaustion is
jurisdictional and to the extent defendant has not exhausted the
basis for relief set out in his motion, the court will deny the
motion without prejudice for failure to exhaust.

Alternatively,

the court will deny the motion on the merits.
Based on the foregoing, it is ordered that defendant’s
motion for compassionate release is denied without prejudice for
failure to exhaust.

Alternatively, the motion is denied with

prejudice on the merits.
SO ORDERED this 4th_day of August, 2020.

__/s/ Tom S. Lee___________________
UNITED STATES DISTRICT JUDGE
12

APPENDIX 2

APPENDIX 3A

Case:
20-60876
Document: 00515740769
Page:
1 03/04/21
Date Filed:
02/10/2021
Case
3:07-cr-00075-TSL-LRA
Document 116
Filed
Page
1 of 2
Case: 20-60876

Document: 00515765717

Page: 1

Date Filed: 03/04/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

February 10, 2021

No. 20-60876
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Leonard Griffin,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:07-CR-75-1
Before Jones, Barksdale, and Stewart, Circuit Judges.
Per Curiam:*
Leonard Griffin, federal prisoner # 09300-043, is serving a 180-month
sentence for possession of a firearm by a convicted felon, in violation of 18
U.S.C. §§ 922(g)(1) and 924(e). He challenges the district court’s denial of
his 18 U.S.C. § 3582(c)(1)(A) motion for compassionate release due to the

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case:
20-60876
Document: 00515740769
Page:
2 03/04/21
Date Filed:
02/10/2021
Case
3:07-cr-00075-TSL-LRA
Document 116
Filed
Page
2 of 2
Case: 20-60876

Document: 00515765717

Page: 2

Date Filed: 03/04/2021

No. 20-60876

COVID-19 pandemic.

Griffin contends that his health conditions

(hypertension and hyperthyroidism), his age (49), and his being black create
a risk of severe illness due to COVID-19, constituting extraordinary and
compelling reasons for compassionate release. He also asserts his mother’s
advanced age and health conditions warrant compassionate release to allow
him to care for her. Further, Griffin contends the 18 U.S.C. § 3553(a)
sentencing factors support his request.
A district court may reduce a defendant’s sentence if, after
considering any relevant § 3553(a) factors, it finds: “extraordinary and
compelling reasons warrant such a reduction”; and “such a reduction is
consistent with applicable policy statements issued by the Sentencing
Commission”. 18 U.S.C. § 3582(c)(1)(A)(i). This court reviews the district
court’s denial of a § 3582(c)(1)(A) motion for abuse of discretion, giving
deference to the district court’s application of the § 3553(a) sentencing
factors. United States v. Chambliss, 948 F.3d 691, 693 (5th Cir. 2020) (noting
the district court “is in a superior position to find facts and judge their import
under § 3553(a) in the individual case”).
The court determined that, even if there were extraordinary and
compelling reasons warranting Griffin’s release (there were not), he would
be a danger to society and should not be released. The court relied on
Griffin’s prison disciplinary record, which includes a conviction for
assaulting an officer. Griffin has not established that the court based its
decision on an error of law or a clearly erroneous assessment of the evidence
when it determined that the § 3553(a) factors weighed against a
compassionate-release

reduction.

See

§ 3553(a)(1)

(history

and

characteristics of defendant) and (a)(2)(C) (need to protect the public); see
Chambliss, 948 F.3d at 694.
AFFIRMED.

2

APPENDIX 3B

Case:
20-60876
Document: 00515740803
Page:
1 03/04/21
Date Filed:
02/10/2021
Case
3:07-cr-00075-TSL-LRA
Document 117
Filed
Page
1 of 1
Case: 20-60876

Document: 00515765716

Page: 1

Date Filed: 03/04/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

___________
Certified as a true copy and issued
as the mandate on Mar 04, 2021

February 10, 2021

No. 20-60876
Summary Calendar
___________

Attest:
Clerk, U.S. Court of Appeals, Fifth Circuit

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Leonard Griffin,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 3:07-CR-75-1
____________________________
Before Jones, Barksdale, and Stewart, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

